oN

vem  COCKLE

. ‘ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-621
HUA CAI,
Petitioner,
v.
HUNTSMAN CORPORATION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), J certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 2642 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed,

Subscribed and sworn to before me this 17th day of December, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

; l RENEE J. GOSS B
My Comra. Exp. Soptambor 5, 2023

    
    

 

 

Notary Public / Affiant
40427
